Docket No. 20-658

United States Supreme Court
SHERRI COHEN
Petitioner,
-againstEQUIFAX INFORMATION SERVICES LLC and
TRANSUNION LLC
Respondents.
-o—
On Petition for Writ of Certiorari to the
United States Court of Appeals for the
Second Circuit, No. 19-3063

RULE 15.8 SUPPLEMENT
Sherri Cohen
Pro Se
P.O. Box 4171
Middletown, New York 10941
(845) 381-2775
myverypersonalpapers@grnail.com

January 152021

TABLE OF CONTENTS

QUESTIONS PRESENTED

1

TABLE OF CONTENTS

2

TABLE OF AUTHORITIES

3

SUPPLEMENTAL INFORMATION

4

CERTIFICATE OF SERVICE

8

CERTIFICATE OF COMPLIANCE

9

EXHIBITS

10

2

QUESTIONS PRESENTED

This is supplemental information supporting my Question 3. These actions
occurred in the District Court after I filed my Writ of Certiorari on November 8, 2020. The
first of these actions began on November 24, 2020 and relates to my Question 3, which I
raised in my Writ, that the District Court applied different standards to me as a pro se
plaintiff than it applied to the party represented by counsel. There was an ex part,e
motion, initiated by opposing counsel and ruled on by the District Court's clerk without
notification to me, and fully admitting this course of action.

1

The questions presented are:
Question 1. Whether CRAs like TransUnion and Equifax
can satisfy the requirement of §16811(a) of the FCRA that
they "conduct a reasonable investigation" of the disputes
consumers raise regarding the accuracy of information in
their credit files by merely asking furnishers to verify the
information provided and then re-parroting the
furnisher's response back to the consumer, effectively
wiping out any independent investigation by the CRAs.
Question 2.Whether CRAs like TransUnion and Equifax
can extort consumers into dropping their FCRA suits by
making the consumer's credit file inaccessible to creditors
and to the consumer—making the consumer disappear to
creditors—unless the consumer agrees to drop their
lawsuit.
Question 3. Whether the district and appellate courts can
hold the claims of pro se parties to different standards
than represented parties, requiring lesser types of proof
from represented parties and letting licensed attorneys
engage in conduct courts would not allow against
represented parties. I'm an upstate New York housewife
with some college, no degree, and no legal training
whatsoever. I did not have the money to hire an attorney
full time, so I took this case on pro se, seeking help where
I could. The District Court seemed to hold my pro se
status against me and let the defendants act abusively.
The Second Circuit seemed to be suspicious of my pro se
status because I did get legal help and my briefs were of a
decent quality. Because of this, both courts discriminated
against me and denied me the same rights and
protections and did not apply the same rules and legal
standards to me that they normally afford to represented
parties. Both the lower court and the Second Circuit
departed from the accepted and usual course of judicial
proceedings and denied me the same rights and
protections which they grant to represented parties
because I am pro se, and this Honorable Court needs to
step in and exercise its supervisory power to correct this
injustice and reestablish that pro se parties are entitled to
have their cases evaluated on the same standards and
bases as parties with attorneys.

Question 4. Whether disputes made through credit repair
agencies should be considered disputes for the purposes of
the FCRA.

TABLE OF AUTHORITIES AND CASES

STATUTES AND RULES:
Fed. R. Civ. P. Title 28 U.S.C. Rule §5(a)(1)

5

Fed. R. Civ. P. Title 28 U.S.C. Rule §54(d)

5

Fed. R. Civ. P. Rule, Local 6.1

5

Judge Rakoff Court Rules

4

3

JURISDICTIONAL STATEMENT
This brief is filed pursuant to Supreme Court Rule 15.8 which allows parties
to file supplemental briefs where new information arises after a petition is filed.

4

SUPPLEMENTAL INFORMATION

This is a 15.8 supplemental brief. I am adding the email pictured below because it
totally explains and evidences exactly what happened (a picture is worth a thousand
words). I am also listing it as an exhibit. This is new information. My question 3 stated that
I was held to a different standard than the represented party. The lower court(s) denied
me the same rights and protections that I deserved per legal standard and would have
gotten had I been represented by counsel. This honorable court needs to step in and use
its judicial authority to correct this injustice and ensure that legal proceedings are the
same for all.

Cotten V.
4 iir.eq4=:.

et al., 318rev-€210 - Madan for A 3410.,

f

•

&adleer Atte.Appleh <Asoiray_AtioWialogloystoscourts.
Tom, Nor 24, 2020 ea 3:54 POI
To: -tnitotitioras@sotucOirtracour .tentomfortnesgschasicittoramm>, lwoonspersanolpaperiggmailmone
<Tnyvelypeoseoeilpams@grnaitotro>

Counset
I am the primary point of contact tor the above-captioned case. Chambers ieceived a voioemail
rnessage yesterday seating leave to tile a motion for Venters tees. Leave to ide is ,!,ti
Ni
ogoosition is due 14 der alter the motion kr aCkalluvy's tees is lied; a reply is due 7 days Edam the
opposition.
Please note Chambers gaud be wading ream* art times. Gang lorwatd, if you wish to
schedule a telephone cordetence voli Chambers brace purpose retelling to yeas case, please
end me, copying plaintit and I will provide the be phone number for you to cal.
Regatds.

Atztrey L Actu-Apphats
LatiCletir in the, Hun. Jed S. Ratzt
U.S. District Court for the Southern District al New York
Daniel Patritt Mort= Untied Stmes Courthouse
500 Pearl Street, Room 1340
New York, NY 10007
Office: (212)805-0401

4

days—instead of the usual 21 days—to reply to a motion that was time-barred and
never served upon me, and this decision was made based on a voicemail that opposing
counsel, Camille Nicodemus, left ex parte. An ex parte hearing and a ruling done by a
clerk and initiated by opposing counsel for TransUnion would never have been done
had I been represented by legal counsel. The federal rules of civil procedure and local
rules both require that a party serve the other party with any motion they file and that
rule was broken. See Rule 54(d), Rule 5(a)(1), local Rule 6.1.
TransUnion had 14 days after the court issued its judgement to seek fees. That
time passed on 9/27/19 after the judgement was passed on 9/13/19. Ms. Nicodemus
has been practicing law for 24 years and is accepted to the following bars and districts:
Indiana, 2004, New York, 1997, U.S. District Courts (Northern District of Illinois,
Northern District of Indiana, Southern District of Indiana, Southern District of New York,
Eastern District of New York, Western District of New York, Eastern District of Michigan,
Western District of Michigan, Western District of Wisconsin), U.S. Court of Appeals
(Second Circuit, Third Circuit, Seventh Circuit, Eighth Circuit, Ninth Circuit), and the US
Supreme Court. She knows right from wrong and is an expert on procedure. She was
also supposed to send me a copy of the bill for my review, and instead, she requested
of the court to allow her to fill in that information later, in essence giving her a blank
check. I am including Judge Rakoff's rules which are perhaps a stricter version of the
SDNY rules and the general rules of civil procedure. Judge Rakoff will not allow any ex
parte communications, even if the two parties have agreed to such a communication.

a

After much b ck and forth with Ms. Nicodemus, she eventually agreed to have a
conference phone call with Judge Rakoff, and that happened on 12/2/20. Judge Rakoff

5

was alerted to what happened, and also had more than likely viewed my letter filed in
the pro se office per regulation rules. To my astonishment, Judge Rakoff hardly had a
reaction. It was as if he was treating a premeditated murder case as if it were a minor
traffic violation. He did ask Ms. Nicodemus to check with her client to see if her client
was willing to drop the futile claims she had put forth. Ms. Nicodemus agreed to get
back to him and stated that she must go forward with her request for fees.
The fact that his is even being litigated, despite the fact is that TransUnion's
request for fees does not meet the requirement for judicial review, which explains why
Ms. Nicodemus went in through the back door, through a clerk whom she had a long.
term relationship with (or quickly made one). Eventually, after I put several letters into
the pro se file in objection to what happened, Judge Rakoff did what seemed to be the
proper avenue and referred it back to the original magistrate for review and to make a
recommendation as to what to do to Judge Rakoff. This all seems fine, but the real
problem is that regardless of the magistrate's recommendation Judge Rakoff will not be
making the decision; the same clerk will be dealing with this issue.
In my motion for summary judgement, I believe a different clerk also made the
decision. To note, Magistrate Parker had recommended for summary judgement that
two of my issues go to trial, and the issue of the litigation lock was totally ignored by
Judge Rakoff and/or his clerk and the second circuit stated it was a legitimate issue
(see Spector v Equifax), but had also stated that I did not have proof, when I had'
included counsel's own statements and a transcript of a tape recording. My case
mimicked Spector, and the magistrate's recommendation indicated the same My case

6

Rakoff and/or his clerk and the second circuit stated it was a legitimate issue (see Spector
v Equifax), but had also stated that I did not have proof, when I had included counsel's
own statements and a transcript of a tape recording. My case mimicked Spector, and the
magistrate's recommendation indicated the same My case was treated differently in that
regard. Counsel for TransUnion also admits and defends this practice for all its 7,000
cases.
While some legitimate differences of opinions can occur, this was not the ease. Ms.
Nicodemus continued to misquote me and general case laws. The case laws that I quoted,
which are also well-known and established law, were totally ignored by the lower court/s.
In fact, thirty years of established law was totally ignored. One of the reasons for this was
that the party with representation was taken very seriously because of her status as
officer of the court, when in fact she put forth falsehoods.
In conclusion, throughout this case the court(s) held me to a different standard
than the represented party TransUnion. The fortunate aspect of this situation is that the
Supreme Court now has the evidence it needs. Since Ms. Nicodemus has illustrated
herself in many situations not to follow the rules, and in this particular situation has
proven herself to deliberately go against the rules that govern her license, what she puts

TransUnion having 7,000 lawsuits in recent years is very offensive in and of itself I dicta google search of
Ms. Appiah, and she is a recent law school grad new to the legal community. I thought judges and magistrates
made rulings, and not clerks. A clerk is allowed by law to do a lot of projects/activities but must be
supervised by the presiding judge. 'Ultimately the presiding judge is responsible for their clerks' behavior. I
am concerned at this proven/documented behavior by Ms. Nicodemus and Judge Rakoffs clerk Ms.
Nicodemus claims that there was not an actual communication because she had left a voicemail. Her
defense, evidenced by the Judges clerk, shows (actual email). The court departed from fair and equal
practice and denied me my rights still exists and needs to be corrected. If Ms. Abu Appiah made a ruling
based upon the voicemail left by.Ms. Nicodemus, there was still an exparte communication without prior
notification tome. and.a ruling was made.
7

forth to this court should and must not be taken as factual and must be highly scrutinized,
Ms. Nicodemus has not behaved in accord with her status as an officer of the court,
representing her client, TransUnion. The allowance of counsel to be able to break all the
rules and for the court to allow it, proven in this supplementation has gone on throughout the
case in both lower court/s. This should not have been allowed, as it is departed from their
original rules that were set up to keep it all equal and fair and should be corrected by this
Supreme Court.
This concludes the 15.8 supplementations. Thank you for adding this supplementation to my
Writ of Certiorari and for your attention to this matter.

Sincerely,

Sherri Cohen. Pro Se
20 658

See exhibit one email where Ms. Nicodemus, counsel for Transunion requests of court a deviation from the accepted
rules 11(b) 54 (d) / asks the court to consider allowing her to handle the case differently for her client, when the rules
clearly state I must be afforded the opportunity to view the bill first. Ms. Nicodemus was never entitled to put in this
motion because she was time barred and other considerations. This is another example of how this court has erred by
breaking its own rules and the Federal Rules of Civil Procedure.

EXHIBIT One
a-ex parte communication from Transunions counsel Ms
Nicodemus to Judges clerk, where clerk made an instant
decision without notification to me and gave me less time
than is per procedure
b-Ms Nicodemus trransunions counsel request of court to
allow her to violate the FRCP rules and continue to not
supply the original document of costs for my review and to
allow her to fill in the amount later.

Gmail

sherri cohen crnyverypersonaidapers@gmed.com,

Cohen v. Equifax et al. 18-cv-6210 - Motion for Attorney's Fees
4 messages
Tue, Nov 24, 2020 at 3:54 PM
Audrey Adu-Applah Audrey AduApplahanysd.uscourts.gov>
To: "cnicoclemus@ischuckitlavi. corn" <cnitodernus@schuckitlaw.corn>, "myvetypersonalpapers@gmail.corn"
<myverypersonalpapers@gmail.corri>

Counsel:
I am the priMary point of contact for the above-captioned case. Chambers received a voicemai I
message yesterday seeking: leave to the a motion for attorney's fees. Leave.to file is granted. An
opposition is due 14 days after the motion for attorney's fees is filed; a reply is due 7 days after the
opposition.
Please note Chambers staff will be working remotely at times. Going forward, if you wish to
schedule a telephone conference with. Chambers for any purpose relating to your case, please
email me, copying plaintiff, and I will provide the best phone number for you to call.
Regards,

Audrey L Mu-Applah
Law Clerk to the Hon. Jed S. Rakoff
U.S. District Courtfor the Southern District of New York
Daniel Patrick .Moynihan United States Courthouse
500 Pearl Street, Room 1340
New York, Ni;Y 10007
Office: (212) 805-0401
sherri cohen i..nyverypersonalpapers@gmail.com>
To: Audrey Adu-Appiah <Audrey_AdUAppiah@nysdruscourts.gov>

Fri, Nov 27, 2020 at 4:03 PM

hello, i am sherri cohen, theproselitigant in the case called sherri cohen v equifax et.al, which includes transunion. i am
completely confused by your email and the fact that my opponent was permitted to reqUest and receive permission via
a voice mail of which i had not been alerted or been a part of, i wish to be included. in all requests and ask that
exparte requests by my opponents/s not be allowed, would you be kind enough to email. me back and let me know if i am
correct that the judges rules requires that all parties. be on the line or file a joint letter/email. i read the judges rules again,
and perhaps i misunderstood and perhaps all has changed and it could be that we can all leave a message on your voice
mail and then get permission for what we are seeking. i thank you very much for your time and for getting back to me to
clarify, thanks so much, i appreciate you getting back to me.

[Quoted text hkidenj

sherti cohen <myvelypersonaipapers@groaii.coM>
To: Audrey Adu-Appiah <AudreyAcIOAppiah©pysd:U$COUrte.gov>
what method of delivery is
[Quoted text hidden)

now being used. please supply permission on how to send

Sat, Nov .28; 2020 at 10:34 AM

M email

sherd when <mpterypersorhalpapersggimaitcom>
.

sherri cohen respectful request for time extension to submit reply brief
3 messages
sherri cohen <myverypersonalpapers@gmail.com>
Thu, Jan 7, 2021 at 10:26 AM
To: Parker NYSD Chambers <Parker NYSDChambers@nysd.uscourts.gov>, "Camille R. Nicodemus"
<cnicodemus@schuckitlaw.com>
Dear Magistrate Parker, I am very respectfully requesting an extension in time to submit my reply brief to transunions
motion against me.. I am almost done, but not quite as organized as i would like it to be for easier court reading. The
more limited hours of the pro se office due to the corona virus and that i believe they may be backlogged due to the
recent holidays and the limited hours of the secretary service i am using to file electronically has added to my delay.
Thank you for your consideration of this request. I have sent a copy of this email to opposing counsel, at the same time,
per court rules.
if i do not hear from this honorable court or it would cause the court too much difficulty, i will do my best to submit what i
have so far on the original due date
Sincerely, sherri cohen

Camille R. Nicodemus <cnicodemus@schuckitlaw.com>
To: sherri cohen <myverypersonalpapers@gmail.com>, Parker NYSD Chambers
<Parker NYSDChambers@nysd.uscourts.gov>

Thu, Jan 7, 2021 at 11:13 AM

Dear Judge Parker,

We represent Trans Union in this matter. After the Court granted Trans Union's Motion for Summary Judgment and
denied Plaintiff's Motion for Summary Judgment, Trans Union filed its Motion for Fees, Document No. 204. Plaintiff filed
her Opposition to same and Cross-Motion for Fees, at Document No. 206. Thereafter, she filed Addendums to her
Opposition, at Document Nos. 217 and 219. She also filed several other Letters to the Court addressing the Fee
Motions.

Plaintiff filed another Motion seeking fees, her "Rule 11" Motion, Document No. 209. Trans Union's response to
Plaintiff's Fee Motions were filed together as Document No. 218.

It is Trans Union's understanding that Briefing on the Fee Motions is closed, but would appreciate any clarification from
the Court. In particular, we note that Plaintiff's filing at No. 219 objects to Trans Union's not having specified the amount
of fees it seeks. The Proposed Order on Trans Union's Fee Motion provides that the proposed amount and supporting
documents may be submitted for the Court's consideration upon the Motion being granted, unless the Court directs
otherwise.

Thank you very much for your time and consideration.

Respectfully submitted,

EXHIBIT TWO
Judge Rakoffs individual rules, in particular the forbidding of any exparte
communication, even if the opposing party consents. It seems that an
exception was made in the case of Ms. Nicodemus, counsel for Transunion,
that most likely would not have happened if I was represented by counsel

Effective February 3, 2020

INDIVIDUAL RULES OF PRACTICE HON. JED S. RAKOFF

Chambers

Courtroom

Room 1340

Room 14-B

United States Courthouse

United States Courthouse

500 Pearl Street

500 Pearl Street

New York, NY 10007

New York, NY 10007

(212) 805-0401

(212) 805-0129

1. Written or E-mail Communications

All communications with Chambers must be by means of
joint telephone calls, as described in Rule 2, infra.
Correspondence with the Court (whether by letter, email, or
otherwise), filing correspondence on ECF or docketing
correspondence with the Clerk of Court, and copying the Court on
correspondence with others, is strictly forbidden, except as
specifically authorized by these rules or expressly requested by
the Court. Even if the Court emails an order, opinion, or other
communication to the parties, the parties may not respond by
email unless the Court directs them to do so.
Where specifically authorized by these rules orexpressly requested by the Court, e-mail communication shall be
sent to RakoffNYSDChambers@nysd.uscourts.gov as .pdf attachments
with copies simultaneously delivered to all counsel. Emails shall
state clearly in the subject line (i) the full caption of the
case, including the party names and docket number, and (ii) the
1

contents of the email. The beginning of the email communication
must clearly state the contents and purpose of the email. Copies
of correspondence between counsel shall not be sent to the Court.

2.

Oral Communication; Motions and Applications

No ex parte communication with Chambers is permitted,
even on consent of opposing counsel, except for those limited
applications in criminal cases expressly permitted by statute to
be made ex parte or when counsel for a party has not yet entered
a notice of appearance. Counsel for all affected parties must be
on the line whenever a telephone call to. Chambers is placed;
however, all similarly situated parties may, if they wish,
designate a "lead" counsel in advance to represent them on any
such call. The Judge and/or his clerks are normally available to
receive telephone calls between 9:00 a.m. - 1:00 p.m. and 2:00
- 6:00 p.m. If calling within these hours, counsel need not
schedule a telephone call to Chambers in advance. Please first
provide the docket number of the case when a Chambers staff
member ,answers the telephone. If all lines are busy, the call
will be transferred to voicemail. Any message left on the
Chambers voicemail or with Chambers staff must include the docket
number of the case and the names and telephone numbers of all
participating counsel.
On calls to Chambers, parties should be prepared to state
clearly and succinctly (1) the nature of their application (the
relief requested of the Court); (2) the reasons for their
application; and (3) whether a given application is opposed by
another party.
In order to bring on any contemplated motion or
application of any kind whatever, excepting only a motion for
admission pro hac vice (which may be filed without prior
2

authorization) or the ex parte criminal applications referred to
above, counsel for all affected parties must jointly call
Chambers in the manner prescribed above. No party will ever be
denied the right to make a motion permitted by law; but if the
Court determines that the matter can be resolved telephonically,
it will hear the application or motion immediately and issue a
ruling then or shortly thereafter (orally, or, if so requested by
counsel, in writing). If, conversely, the matter requires motion
papers and/or in-court argument, a schedule for same will be
determined at the time of the call. In criminal cases, however,
any party can demand that any non-scheduling matter brought up in
a telephone conference be the subject of an in-court hearing
before decision.
If counsel for any party seeks to convene a call to
Chambers, counsel for all other affected parties are expected to
make themselves available for such a call within 24 hours of the
request. If, after successive attempts, counsel for any affected
party is unavailable for the call, the initiating party may then
send Chambers and all affected counsel an email or a letter not
to e*ceed two double-spaced pages, describing the efforts made to
convene a conference call and briefly describing the proposed
motion or application. In such a case, per Rule 1, supra, no
reply or other correspondence is permitted, but a conference with
the Court will be promptly arranged. Notwithstanding these rules
applicable to parties represented by counsel, if one of the
parties is an incarcerated person proceeding pro se, the
initiating party may send all affected counsel, the pro se party,
and Chambers a letter describing the application.
Where motion papers are necessary, counsel for the
moving party, following the scheduling of the motion, shall file
a short Notice of Motion setting forth a one-sentence
description of the motion, the schedule for service and filing
3

of the various parties' papers, and the date and time of oral
argument as set by the Court. Motion papers shall consist of
moving papers, answering papers, and the moving party's reply
papers (when permitted). Any legal memoranda must include a
table of authorities, arranged alphabetically, with case
citations including accurate pin or jump citations. Each party
must file its respective papers with the Clerk of the Court on
the same date that such papers are served. Additionally, counsel
filing those papers must arrange to deliver courtesy hard copies
to the Courthouse for delivery to Chambers by the next business
day following the filing.
Unless otherwise specified by the Court, any
memorandum of law submitted with the moving papers or the
answering papers on any motion is limited to 25 double-spaced
pages, and any reply memorandum is limited to 10 double-spaced
pages. Both the text and footnotes in such memoranda of law must
be in 12 point type on 8 by 11 inch paper (or the electronic
equivalent), with Times New Roman type preferred. If the Court
permits letter briefing in lieu of formal memoranda, the rule on
font size for text and footnotes still applies. With respect to
motions for summary judgment, Local Civil Rule 56.1 will be
strictly enforced. Citations to the record in any memorandum of
law filed in connection with a motion for summary judgment must
include a citation to the party's Local Civil Rule 56.1
Statement of Material Fact or opposition thereto.
All documents filed on ECF must be word-searchable to
the extent reasonably practicable.

3.

Initial Conferences and Civil Discovery

(a) In civil cases, an initial conference will be held no
later than six weeks after filing of the Complaint (and often
4

